9 0-

No. i

-n r-/
ji

•'j'

r - -f

ORIGINAL
Supreme Court, U.S.
FILED

OCT 0 1 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
P£"t \Tl0nJ

P li

F*>/}

usr'rt- af de-/'" TA<?/?/T/Lr

Ri Ygt//> (L
(Your Name)

— PETITIONER

vs.
£//*) i
C~F~/3 Fr. ( r*.
f’-fi
For tUc Sev4n+h Circuif

ft-PO&c. f f

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

S Ai/r./n ~rlt

g(Le>ur+- rsfi- AAPCA- L.

^A/Q,

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

/9/ (v,/-). yy#uty
(Your Name)
Pi O. Ro\( IHsroo
(Address)
L. P. Y tr\^-hOr^ j «y

H0S-/2.

(City, State, Zip Code)

m/a
(Phone Number)

r~R£CBVEO
OCT | 6 2020
aUPRC4.f>ftl^LERK

QUESTIONS
x(1)

Where the conviction is built on perjury, the prosecution

knew of Head Agent Dana McNeai and alleged victim's falsb testimony
(rnd.tr

oath, and prosecution misconduct.

Violated my due process and

Kutzner v. Johnson rule of 18:U.S.C. § 2516, 3600 or Part 1. crime,
chapter 79 perjury.

That an agent of officer which a law of the

United States authorized an oath to be administered, that will
\

testify truly.

The Seventh Circuit says a lie can be justified

as long as it is in the Government's interest, or benefits them.
* (2) Where the District Court used offensive element I was not
indicted on or charged, to prove 18:U.S.C. § 1591 and 1594 commerce
and jurisdiction.

How can the court have the jury find me guilty

of ("entice", 18:U.S.C. § 2422(b)) which I was not indicted or
charged with?

The Appeal Court switched "entice" to "coerced" to

keep from ruling in my favor.

How can the District Court sentence

me under an adult charge that the jury did not find me guilty of?
9th Circuit says failure to state element of charge offense involved
right and is reviewable and is a fundamental defect that rendered
indictment constitutionally defective.
S (3) When did Congress of Supreme Court give the District Court
power to authorize the prosecutor to strike offensive elements from
an indictment without resubmission to a grand jury?

When is a

superceded indictment, unsigned by the Government, OK?

When can

the Government amend section and subsection of the statute and make
it ambiguous and add sections from all section, and drop offensive
element from it? The 10th and 9th Circuit say this makes the
indictment constitutionally defective and should be void.

This

also violates the rule in Miller v. United States by broadening
my charges and indictment.
> (4) How can any court make a defendant go to trial without
receiving any of his Discovery or time to mount a defense? This
is a violation of my due process,
y (5) How can 18:U.S.C. § 1594 be proven without the offensive
element "recruit" or "entice"?

How can I be found guilty of

Alexis on attempt to "recruit" or "entice"?

5th Amendment due

process claim that evidence was constitutionally insufficient to
sustain verdict of guilty.

Fiore v. White U.S. 225 (2001).

Prosecution failed topresent sufficient evidence to prove element
of crime and therefore petitioner's conviction is not consistent
with the demands of the Federal Due Process clause.

1 8:U.S.C.

§ 1591 or 1594, 11th and 5th and 9th Circuit say nothing in
18:U.S.C. § 1591 or 1594 lowers the Government's burden of proof;
the Government must prove beyond a reasonable doubt all elements
of the 1591 crime.

United States v. Mozic 752 F. 3d 1271.

5th

and 11th Circuit Appeal, 7th Circuit say Government can pick one
offensive element to prove out of the statute?
X (6) Where Agent violated the rule United States v. Infante-Ruiz
of search and seizure.

How can the First Circuit vacate conviction

because the sister had neither actual nor apparent authority to
consent to search of brother's bags?

The Seventh Circuit District

Court says it is OK because the landlord had a key; the 7th Circuit
Appeal Court would not rule on it because Young asked for the
evidence to be suppressed the day he went prose,

The judge chose

to wait until sidebar at trial to answer the motion.

The Appeal

Court says the motion was put in too late,

Is this not a

violation of my Fourth Amendment right?
7$ (7) Where does defendant's due process right get violated to
fair justice under the law?

Fourth Amendment; Supreme Court

ruled on the Carpenter case; different judges are using different
loopholes not to abide by the court.

The courts say the Supreme

Court was not clear and needs to be clear on it's ruling, Some
judges day the ruling does not say if it is retroactive, it does
not say if a warrant application is OK.

Chief Justice John Roberts

said in Carpenter case warrants however do not ensure that CSLI is
accurate, only a third-party review of the technology used to gather
the evidence can do it. Denmark proves that to be true; if Denmark
releases prisoners and stops’ prosecuting with CSLI and stated they
could not live with innocent people being in prison, how can America
live with this?

TABLE OF CONTENTS
V. FOLLOWING PRO'SE DECLARATION, DISTRICT COURT ALLOWED
INSUFFICIENT TIME FOR DEFENSE PREPARATION
(A) Young was denied adequate time to get Discovery information
for review, and time to prepare for trial,
eviscerated his proper defense,

Inadequate time

The District Court's denial is

premised on punishment for Young's pro*se status and for not pleading
out.
case.

This is Young's, first pro* se motion to continue in a 1 5-month
(Page 15-18)

VI. SUPREME COURT
(A) CSLI ruling not clear, judge says, and CSLI is accurate,
only a third-party review of the technology; Denmark stopped it;
Chief Justice Roberts said same in Carpenter case.
VII. NO "RECRUIT" OR "ENTICE" ELEMENT
(A) How can the Government prove 18:U.S.C. § 1591 or 18:U.S.C.
§ 1594 without the offensive element "recruit" or "entice" or
jurisdiction or commerce without recruit, entice, advertise, solicit,
patronize, (a)(1), (a)(2), (b)(1) or any of Section (E)?

(Page 30—31)

VIII. SENTENCE
(A) Failure to state element.of charge, section and subsection.
Wrongly charged as adult.
not court.

Jury must find a person guilty of element,

(Page 32)

rA«.

• I I

U I

TABLE OF CONTENTS
I. THE CONVICTION IS BUILT ON PERJURY
(A) The prosecution knows the tertimony of Agent Dana McNeal
and the alleged victims is false (Page 10-15)
(B) Agent paid the victims and helped them out of trouble
with the law (Page 14-15)
(C) Prosecution misconduct and biased judge
II. FAILURE TO STATE ELEMENT OF CHARGE
(A) Government evidence is insufficient because the interstate
commerce element cannot be proven and jurisdiction, and nothing
definitive connects Young to Alexis.(The Government needs
offensive element recruit and entice)

(Page 19-21)

(B) Seventh Circuit Court of Appeal and District Court use
18:U.S.C. § 2422(b) which is "entice" to prove interstate commerce
in my trial.

Both courts knew I was not indicted on that offensive

element and did not have to prove it.

The Appeal stated that fact

about recruit in the same direct appeal decision. (Page 24-28)
(C) How can the court ask the jury to find me guilty of
offensive elements I was not indicted on, recruit or entice,
solicit, advertise, patronize, (a)(1), (a)(2) which is also section
for venture, and (b)(1) and all of Section (E); the Government
needs section (a)(1) and (a)(2) for the attempt charge. (Page 25-26)
■(D) Indictment was unsigned. (Page 27)
(E) Verdict at variance with Indictment and statute Fifth
Amendment grand jury guarantee.

(Page 28-29)

III.- ILLEGAL SEARCH AND SEIZURE
(A) The District Court erroneously admits the notebook and

I

TABLE OF CONTENTS
papers and information from the storage I own, because I sub-ieased
the apartment from Harris.

Harris told the F.B.I. when they called

him to the apartment he did not live there, and thus had no
apparent authority.

(Page 8-9)

(B) The Appeal Court errored in it's reason for not granting
the motion.
facts wrong.

(See Exhibit 19)

The Appeal Court had most of their

I filed my motion the day I went pro se or asked the

judge to suppress the apartment evidence; the court chose to
answer the motion later and did during a sidebar at trial.

The

Appeal Court was wrong on about 75% of what the court stated as
fact.

(Page 10)
(C) The Government failed to understand that consent to search

is one thing, but consent to unzip a bag and remove the bag from
the apartment is another when Harris told them it belonged to me.
(Page 8-9)
IV. INDICTMENT SHOULD HAVE BEEN VOIDED AND RENDERED CONSTITUTIONALLY
DEFECTIVE
(A) The District Court lacked authority to give the prosecution
authority to strike offensive elements from the indictment without
returning to the grand jury.

(See Exhibit 80

(B) The Government did not sign the indictment.

(See Exhibit HI )

(Page 32)

a
(C) The Government'amended section (b) subsection (H)
unconstitutional.

(See Exhibit H)

The Government failed to state

offensive element of charge, and verdict at variance with indictment
and statute Fifth Amendment grand jury guarantee. (Page 28-31'

11

U

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[y] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[y] reported at tj/iU-rA
v.
?<nr~ f .3A
or, i/$s fi-pp. Lexis [cfru#;
[ ] has been designated for publication but is not yet reported; or, <,,'i
B~Wd.s&v.
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

R

M reported at id* S fLgq, L-ex/t
lit. FeJ. /L, h'J
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest s^ate cou^t to review the merits appears at
Appendix
to the petition^and is
[ ] reported at_______ fj [/ / Sj J____________________; or,
[ ] has been designated/for pumi^jon but is not yet reported; or,
[ ] is unpublished.
/
The opinion of the _
appears at Appendix

o the44iiWand-i

[ ] reported at____ m__ ^
/ i s /__________________ ; or,
[ ] has been designated for pubficatlidn but is not yet reported; or,
[ ] is unpublished.
'
1.

court

to

)

V

■ ‘

■>

>

V

- ' V- *N,
V, - ■

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was &pr)l ~r. 'u>'2,o______
[ ] No petition for rehearing wa3 timely filed in my case.
[)Q A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: j/*#y 31,
i,
a copy of the
order denying rehearing appears at Appendix
fu+acu.
*/V

[ ] An extension of time J^frfilepeti
i
to and including ^
in Application No

i-f-

The jurisdiction of this Court is

it of certiorari was granted
(date)

iked under 28 U. S. C, § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______/
[ ] A timely petition? for renearihg w;
and
appears at Append:

hereafter denied on the following date:
iyoFthe order denying rehearing

y.

[ ] An extension of time tp file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
■)

TABLE OF AUTHORITY
CITATIONS
Katz v. United States 389 U.S. 347 (1967)
United States v. Moran 2019 U.S. App LEXIS 35574 1st Circuit
Appeal 2019
United States v. Infante-Ruiz 13 F. 3d 498 (1st Circuit 1994)
Powell v. Alabama 287 U.S. 45 (1932)
Byrd v. United States 614 A. 2d 25 (D.C. 1992)
Sykes v. United States 585 A. 2d 1335 (D.C. 1991)
Harris v. United States 441 A. 2d 268 (D.C'. 1982)
Asbell v. United States 436 A. 2d 804 (D.C. 1981)
Carpenter v. United States 138 S. Ct. 2206
United States v. Davis 785 F. 3d 489 (Call 2015)
United States v. Miller 471 U.S. 130 105 S. Ct. 1811 85 L. Ed
2d 99 (1985)
United States v. Vesaas 585 F. 2d 101 (8th Circuit 1978)
United States v. Harrill 877 F. 2d 341

(5th Circuit 1989) 1989 U.S.

App. LEXIS 12076 5th Circuit August 10, 1989
Watson v. United States 552 U.S. 74, 80 128 S. Ct. 579, 169 L. Ed
472 (2007)
United States v. Mozic 752 F. 3d 1271 11th Circuit Court of Apipeal
May 22, 2014 98 LED 92, 346 U.S. 374 United States v. Debrow
STATUTES
18:U.S.C. § 1591 and 1594
18:U.S.C. § 2422(b)
18 : U. S. C. § 841 (ar),(1 )

18:U.S.C. § 666(a)(2)
18:U.SSC. § 2421 .
18:U.S.C. § 1952

CONSTITUTIONAL PROVISIONS
United States Constitution

Fourth Amendment

United States Constitution - Fifth Amendment
United States Constitution

Sixth Amendment

ADDITIONAL CITATIONS
United States v. Bird 342 F. 3d 1045 (2003) Cai. Daily op.
Service 8187, 2003

D.A.R. 10169 (9th Circuit 2003) op. withdrawn

357 F. 3d 1082 (9th Circuit 2004)
Fiore v. White 531 U.S. 225 (2001) (percuriam)
Suiivan v. Louisiana $08 U.S. 275. 124 L. Ed 2d 182, 113 S. Ct. 2078
EXHIBITS
See Exhibit 1

See Exhibit 2

See Exhibit 3

See Exhibit 4

See'-'Exhibit 5
APPENDICES
Appendix A - Seventh Circuit Appeals Court
Docket Number: 18-3679
Date of Entry of Judgment: September 1 , 2020

Appendix B - Seventh Circuit District Court
Docket Number: 1:17-CR-00082-1
Date of Entry of Judgment: December 10, 2018

THE CONSTITUTIONAL PROVISIONS INVOLVED

The Fourth Amendment - (Unreasonable searches and seizure)
The Constitution protects the rights of people to be secure in
their person, houses, papers, against unreasonable searches and
seizure.
The Sixth Amendment - (Rights of the accused)
Requires investigation and preparation.
The Fifth Amendment - '('Criminal actions and grand jury guarantee)
Provisions concerning due process of law and just compensation
clauses.

Defendant's conviction was invalid under the Fifth

Amendment requirement that Federal felony prosecution by commenced
by indictment where court's instruction allow jury to find defendant
guilty for offense other than one for which he was indicted.
The Fifth Amendment - (Due process claim)
That evidence was constitutionally insufficient to sustain verdict
of guilty.

Fiore v. White, $31 U.S. 225 (2001) (per curiam)

granting Federal habeas corpus relief because "prosecution failed
to present sufficient evidence to prove elements of crime and
therefore petitioner's 'conviction' is not consistent with the
demands of the Federal Due Process clause".
convicted in the statute.

1

A person must be

STATEMENT OF THE CASE
This was stated by Government at trial Ms. Kastanek; (Trial Transcript)

(1) The prosecutor said Young was not charged with controlling
the alleged victim
(2) That Young was not charged with recruit, entice or 18 U.S.C.
§ 2422(b), advertise, solicit, patronize or section and subsection
(a)(1), (a)(2), (b)(1) or none of section (E).
(3) Page 280 trial transcript exhibit 8.

It is simply a factual

matter of how he came "into” the .trafficking.
(4) It is not alleged that he went to efforts to recruit them.
Page. 280, Line 8-9* (Trial transcript)
By the Prosecutor's own admission, Young was not the trafficker
or he would not have to come into it. That means it was already
going on.
That sounds like they knew it was Hawkins the 24-year old
boyfriend that the landlord put out for prostitution, not Young,
that "J" told the F.B.I. who she worked with and alleged victim
"K" .
Where is. the other trafficker if Y6ung came 11 into "it", and
how did Young get the case and no one else?
Agent Dana lied on "Young"; she lied under oath! Could that
be why they dropped the offensive element recruit and- entice because
it was not my case.

So . by the Government using so much sex the jury

found me guilty. It was so much sex that one of the Government's
own trafficking witnesses, a F.B.I. expert, said she have never

2

seen a traffick case with this much sex in it.

That agent had

done over 500 cases.
In the summer of 2014I was head down town to the Ohio
House.

I notice two girls on the postitute stroll. I saw that

one of them was walking toward a undercover police car. I drove
toward the other girl and watned her, she called her friend back
toward my car. They ask me if I could2'gi"ye^them a) ride to find
"J" boyfriend, after driving and not seeing him. I ask them if
they wanted me to take them home, but I told them they would have
to first ride with me downtown and then after this I will take them
home.

They both.agreed. On the way downtown I ask them how old they

was. I could not tell both had on wigs, and makeup "K" answered me
and said she was 19 years old and "J" was 18 years old. (See
Exhibit 8) We arrived at the hotel called Ohio Houses.downtown. I
could not leave two girls I just met in my car, so I ask them to
come up, it will only be for a second. I had brought some cloth to
a friend and used the bathroom and we left. I was on my way to take
them home when "K" ask do you want a date I said no, then "K" replied
take us home my time is money "J" ask can she ride and talk.
kept in touch with me, and her boyfriend,
they stayed 5 minutes from me.

"J"

He was 24 years old and

"J" was expecting a baby by him,

that baby later died she said. They would call me for rides from
time to time, to give them rides home, or just to talk, he was
trying to be a rapper.

They would stop by from time to time and

take pictures at my house. I had salt water fish tanks, they would
use to take pictures in front of, they would stop by the school

3

where I taught and wait until I finish teaching for a ride or
to borrow a few dollars.

"J" would call after to talk. Then "J"

confided in me about her and her boyfriend and she was told, I
told some people what she told me by Raven and Debtiny the next
thing I knew she went to the police dept, and told them she knew
a guy that was posting girls on backpage. Officer Murphy ask her
was she one of the girls she said no. He did check on her and saw
she had been in a mental hospital. She called and told me what
site had done and I'm going to jail,

Then after that I did not

hear from no one by "J". She still would call needing to talk or
some food to eat. Then "J" called me and said a F.B.I. agent came
by her house and left a card. She want her to say she worked for
me, and get her friends to Say the same,

"J" said she really want

you what did you do to her, she bought me clothes, feed, and a
blanket and gave me money. (See Exhibit 20 and Exhibit 44)
The F.B.I. had the ower of SWC Trade School to call me to the
school to teach a class. When I was a block from the school, the
F.B.I. drove on the curb, jumped out of cars and trucks pointing
guns, blocking me in and saying get on the ground, get on the
ground, where is the gun, where is the gun. I was arrested and put
in the back of the F.B.I. truck handcuff. I was not shown a arrest
warrant then or now .j

I was handcuff and taken into the F.B.I.

headquarters.
The Head Agent on the case stated under oath she had no
warrant whatsoever, she repeated that. Not one allege victim
parents was interviewed by F.B.I. or made statements against me,

4

or came to the trial in behalf of their daughter. What the F.B.l.
did not contact them.
At the Ohio House hotel the allege victims gave different
. story's.

"J" stated a gifl name Brooke was at the hotel, told

her whe was my partner, and showed them how to use backpage.
"J" said "K" and Brooke got into a fight, Brooke slapped "K".
"K" said that never happened, she never saw or met a girl name
Brooke.

"K" said no girl name Brooke was at the hotel and "K"

could not I.D. Brooke in a F.B.l. lineup.

"J" perjured herself

under oath.
"J" told the F.B.l. who she really worked for but I did not
get this report until the prosecution rest their case. F.B.l.
Report 005-000375, 31E-CG-5199319, 01/13/2016, 3 of 3
The F.B.l., the prosecutor and court knew this I sent a copy
to court or judge. How can the court say I had a successful .con.
construction company and had time to traffick girls at the same
time all night and day, thats impossible.
"J" stated to F.B.l.: The landlord told Hawkins (her baby
Father) he was "no good" because of his involvement with prostitution,
she testified backpage also.

"J" stated that the Oak Park house

was? located'Jnext to a bank, right off the green line.
"J" advised that "K" (the Government allege victim twice)
is the person that initially introduced her to prostitution. "K"
took "J" to the stroll and showed her how the process worked.
This is when Young (or I) met them.

"J" stated that she always

felt like she was working with Hawkins, not for him.

5

"J" advised

that anything Hawkins asked for (not YQung) she would purchase
for him.

Hawkins would get mad anytime "J" would get her lashes,

hair, or nails done,

Hawkins would tell "J" that she didn't need

all that. Eventually "J" felt like she was being used. Hawkins
would get mad when "J" told him this. Hawkins encouraged "J"
(not Young) to continue engaging in acts of prostitution until her
son was born.

"J" stated that after the baby was born Hawkins

offered to pay "J" to stop working.
for.him.

Hawkins had other girls working

"J" recalled sisters that worked for Hawkins, that went

by names Tyra and Porsche,

"J" advised that Porsche is the girl

that brought up Hawkins STD on Facebook. Thats why "J" went to
police on me (or Young) because she;thought\I told Porsbhe about
her and Hawkins STD. She stated Raven and Destiny told her I did.
"J" stated Hawkins threatened to return to Chicago and beat
Hawkins told

her up if she spoke to law enforcement about him.

"J" that she had better hope that he is locked up before he comes
out there Chicago.

■

That's why his sister Raven, her girlfriend "K" and Destiny
testified against me, to free him. They all worked together.
"J" testified at trial when she met me she had not started
prostituting yet.

They was just walking down the street and met

me . The)prosecutor| knew this was a lie.

The.y^gave [me this F.B.I.

report. The prosecutor also knew all there girls was close friends
and tied to one guy Hawkins.
Prosecutor Said Young Came Into Case
All the government did was took Hawkins name out and gave
Young the case.

The same Head Agent that lied under oath and did

6

not follow no laws whatsoever, look at the statements.

Raven is

"J" baby Father's sister, Destiny and "K" is Raven's girlfriend,
Alexis is (Hawkins) "J" baby Father, and Raven's cousin,
the Government witness and alleged victims.

That's

So the only way the

F.B.I. agent and prosecutor could get a case and witness and
victims was to get them to bring me in the case.
The Court gave the prosecutor permission to take out an
offensive element from the indictment, then later said the prosecutor
went and received a superceded indictment.

I received an unsigned

copy by the government and the grand jury, and I did not receive
any grand jury transcript,
of my constitutional right.

That's a Brady violation and a violation
The government did not sign it; that

alone should have made it void. (See Exhibit 10 and
I asked for a Rule 29 motion after the prosecution rested. I
asked the court did the government prove all the elements of the
charge for each victim; the court said it has the right to answer
the motion at the end of the trial.

What happened to answering the

motion then?
At the end of the trial I asked the court for a Rule 33; the
court said it would answer both motions at a later date. The court
cannot do that.

I never received an answer until a month before

sentencing. The court just denied the two motions, stating with
all the motions Young put in the court they'd forgotten what Young
asked in the two motions. This was the court's fault for not
answering the motions 'timely." j
The court did not want to answer because the prosecutor did

7

not prove all the offensive elements Young was charged with;
even at sentencing the court would not go over did the government
prove all the elements for each girl that I was charged, or my
memorandum for sentence.

The court said take it up with the Appeal

Court, and went over the government memorandum.
I. ILLEGAL SEARCH AND SEIZURE
The F.B.I. took me to Kankakee County jail; still I was not
shown an arrest warrant.

The F.B.I. searched my apartment; the

F.B.I. knew I was in their custody,

They kept going by my apartment

and calling Harris instead of getting a warrant.

Harris told the

B.B.I. he did not live at the apartment, he stayed with his kid's
mother.

Harris said the F.B.I. threatened him with the same time

Young was going to get if he did not work with them,
he consented for them to search the apartment,

Harris did;

Harris said he never

consented for the F.B.I. to open or take anything from the apartment.
A consent to search is different from a consent to seize; even the
F.B.I. never said they had permission from Harris to seize anything,
they just took it upon themselves to do it.

Harris sent a letter

to Young stating the F.B.I. kept writing down stuff; he did not say
and I still have the letter.

Harris stated he told the F.B.I. the

bags on the floor were Young's, and the agent still unzipped the
bags and removed a notebook, keys, and Young's storage information;
the prosecutor introduced these into evidence.

Young asked the

court to suppress the evidence the same day Young went pro se, but
the court chose to wait to answer the motion at sidebar at triel.
(See Exhibit 3)

8

This arrangement describes a sublessee relationship because
Young paid Harris rent.

The prosecution proffers no evidence that

Harris and Y6ung co-occupied the apartment, shared rent, or even
spent time in the apartment together.

That Harris has a key changes

nothing; most responsible landlords own extra keys to their
apartment for emergencies, repairs and turnover.

The record provides

no evidence that Harris kept his key for different reasons. See
Katz v. United States 385 U.S. 347 (1967)
The F.B.I. knows Harris does not live at the apartment, he lacks
apparent authority.

The District Gourt misses the mark with its

analysis of each factor, and the Appeals Court does too. Without
both, the reason supporting the admission of the notebook and paper
fails and the storage papers also.

The Fourth Amendment's protection

is against unreasonable search and seizure,

The District Court and

the Seventh Circuit Appeal Court's decision was incorrect; the
evidence should have been suppressed.
The First Circuit vacated the conviction because the sister had
neither actual nor apparent authority to consent to search the
brother's bags.
The court stated the Fourth Amendment of the Constitution
proteces the rights of the people to be secure in their persons,
houses, papers, against unreasonable searches and seizure.
The court concluded the search was unlawful and the evidence
obtained from black plastic trash bags must be suppressed. Accordingly,
the court reversed the deinal of the motion for reconsideration,
vacated the conviction and remanded the case to the district.

9

Young's case was the same he asked the court to suppress
the evidence the day he went pro se; the court chose to wait until
sidebar at trial. (See United States v. Moran 2019 U.S. App LEXIS
35574 1st Circuit Appeal 2019; United States v. Infante-Ruiz,
13 F.3d 498 (1st Circuit 1994)
II. HEAD AGENT ON CASE PERJURED HERSELF
BY FALSELY TESTIFYING UNDER OATH
The law states: Perjury element, the essential elements of the
crime of perjury as defined in 18:U.S.B.§ 1621 are (1) An oath
authorized by the law of the United States (2) taken before a
competent tribunal, officer, or person, and (3) false statement
willfully made as to factual material to the hearing. 98 LED,
98 LED 92. 346 U.S. 374 United States v. Debrow.
How can the court say if the government witness did not understand
the question or not?

Can he think for her, she did not say that.

That's the job of the witness. (Biased Judge)
agent Dana McNeal, the Head Agent on the case, testified falsely.
This is the Head Agent on the case and her alleged victims.

The

prosecutor knew they were lying and did not try to correct them.
The court asked how could Young prove the prosecutor knew; they were
the ones who gave me and my ex-attorney the reports,

Then the court

said a 28-year Head Agent on my case, that did over 500 cases, was
confused by Young's questions.

The only thing wrong with the court

statement is every time the agent was not sure what I was saying,
either the prosecutor or I would clear it up, or repeat the question
again. The prosecution lied doing the trial; the court covered them.
(Biased Judge)

10

(1) Ms. Kastanek prosecutor:
Said to the jury he explained that he was not an ordinary
pimp, that he would be their friend, and that they would make
money together. (I objected)
The prosecutor had F.B.I. reports from taped phone conversations
with no warrant, with Mr. Young stating he would never say no dumb
shit like he is a pimp; I own a construction company. Matter of
fact, four tapes, "K" testified this was a lie, "J" stated this was
never said, no one said they heard this said.

CL

of my due process to a fair trial.

This was a violation

This was\ Very bad and ambushed

the defense with a lie like this and the court ok'd it.

This showed

the court was biased all through the trial and process to trial.
(2) The prosecutor knew that not "K" on the phone at the Doubletree
Hotel.

Her own F.B.I. expert told the prosecutor that the calls

were outside the timeline. The prosecutor lied again and told the
jury all night there was short phone calls from "K" to me at the
Doubletree for me to pick her up after "K" was leaving client’s
house.

"K" told the prosecutor under oath she did not have no calls

all night.

So the phone record and phone had to be someoneoelse

and not "K's".

"K" stated she only had one call the next day, but

she and Young got into an argument and she went home.
Worse, agent Dana McNeal, the lead case agent testified falsely
about the surveillance of Young.

In a "collected item log" of the

F.B.I., dated July 20, 2016, it was noted that one hard drive
containing pole cam surveilance collected on July 15, 2016 by Agent
McNeal existed. (See Doc. 199 at 2-4)

11

Similarly, an F.B.I. memo

by Agent Kyle Gregory discussed the FBI-installed pole camera
located at Young's work. The memo concludes that Young was not
positively identified during the review,

Yet this contrasted

aharply with McNeal's trial testimony.
Q: Did you find any — did you find any pictures — did you
take any pictures of me with any young ladies or anything?
A: The only time we ever did a surveillance of you was you
walking into a — into SWC Institute.
Q: So that was the only Time?
A: Yes.
Q: Thank you.
Tr. 829-30.
Q: SWC school, the girls said they were going in and out for
about two years taking pictures?
A: I'm sorry?
Q: Where the pictures were taken, the schoo, where the girls
were taken pictures of.
A: Okay.

Q: There's a pole camera outside that school, right?
A: Is there a pole camera?

Q: Right, a police pole camera.
A: The photographs that you —
Q: Did you get any pictures of Mr. Young taking the girls in
and out of the school?

A: I had nothing to do with that pole camera.

12

Q; You didn't ask who it belongs to to see if any pictures
were there?
A: That is not an FBI pole camera.
Q: So you couldn't ask the Cicero police?
A: That is — The Cicero police camera that is in there?
Q: Right, yes.
A: That information is

- that is not available to us, at

that time. The information that we received is not available
at the time that we got the information.
Tr. 832-33.
McNeal's testimony simply cannot be reconciled with the F.B.I.
reports.

McNeal's testimony was false and a new trial is needed

without this falsity.
The District Court errored.

The judge stated Document 213

filed 7/7/2018 Page 15 of 28 Page ID 1431 and denied my motion.
(See Exhibit 13)
(Court stated)

The Government's witnesses did not commit

perjury; Agent McNeal was not asked about the pole camera installed
outside of SWC school.

The court never talked about the other lies

she, Agent Dana McNeal, told.

The court also stated I never

mentioned surveillance, he only stated sting, that's why the court
denied one of my motions.

Then when I showed the court proof, I

said surveillance; also the court, like always, just moved on.
Agent Dana McNeal stated the F.B.I. did not have anything to
do with the pole camera outside of SWC school; it belonged to the
Cicero, Illinois police.

(See F.B.I. Report) One hard drive

13

containing pole cam surveillance collected on 7/15/2016 4:00pm
Eastern Time.
This is almost a month's worth of surveillance from F.B.I.
pole cam surveillance.
Kyle Gregory reviewed footage captured on a FBI-installed pole
camera, located in the area of 5531 W. Cermak Rd, Cicero, Illinois,
that's outside of SWC school.

Now there were two instances of

video missing on February 18, 2016, and February 26, 2016. Attempts
to recover the missing video were unsuccessful. The subject, Allen
Young, was not positively identified during the review.
I told the F.B.I. my keys were missing around this time. The
court gave me two extra points for lying, but the jury did not say
that.

There were many more times the F.B.I. surveillanced me. The

court stated none of the Government witnesses lied.
Jacky told the grand jury she did not ever have sex with me and
never game me any money at all.

Jacky told the grand jury this under

oath. She also told her best friend "J" the same, then turned around
under oath at the trial and told the jury she worked for me, and
gave me sex and money.
Destiny:

That's perjury.

(Biased Judge)

Destiny attempted to resolve numerous convictions

during sidebar did not alleviate the effect of her false testimony
on the jury. The prosecution discusses the sidebar to rehabilitate
Destiny. Excluded from this discussion, the jury only hears Destiny
lie about pleading guilty to retail theft.

The prosecution knows

she is lying because it discloses to the court that she plead guilty
to retail theft and resisting arrest.

14

During trial, the prosecution

attempts to rehabilitate Destiny on redirect because it knows
the truth. "Did you plead guilty to some offenses when you went
there?"

However, she clings to the lie that she did not plead

guilty.
After contending Destiny did not testify falsely, the prosecution
claims Young failed to raise the issue. Because of the disconnect
between the truth in the sidebar and the deceit in the testimony,
the jury believes Destiny merely hitched a ride with the F.B.I.
to settle a traffic matter in Markham. The only time Destiny’s
conviction is mentioned is during a sidebar, thus preserving her
credibility.

(Biased Judge)

On April 24, 2018, Young's attorney asked the court to explain
to Young that he does not have to go the direction Young wants him
to go. The court did. Young explained to the court the lawyer had
not suppressed the arrest warrant, no witness for him, no exhibits,
filed no motions to suppress, only had seen him three times outside
of court in a year and a half, did not have the girls' medical
records, did not interview any witnesses; Young had to. go pro se.
All the attorney wanted to know what what deal would I take.
After the court gave me permission to go pro se, I asked the court
for an additional 30 days that was my due process right. I told
the court I had not received any of the Discovery materials from
my ex-counsel. The case was already two years old; what's 30 more
days?

Young's former attorney told the court I did not have the

Discovery the day of the trial.
about the mail at MCC.

The court stated I warned you

The court appointed my former attorney as

my standby counsel. Even the appeal court said my ex-attorney did
not file my motion in'time.
15

III. NO TIME TO PREPARE FOR TRIAL
(A) I did not receive any of Discovery until the prosecution
rested their case. Young's standby attorney told the court Young
did not receive the Discovery before trial ,had started, and the
Government rushed the trial.
(B) I asked to go pro se: Thirty days before trial, attorney
did not file (1) motion to suppress the apartment evidence and
fruit of its storage; (2) did not ask for the girl's medical
records, found out later they had been in mental hospital and
were bipolar; F.B.I. knew this (3) had not interviewed one witness;
(4) only wanted me to make a deal; (5) only saw him two times. .
That's why the Appeal Court stated no motion was raised in time.
He was ineffective counsel; also the Government stated the same.
Everyone agreed I had to go pro se.
(C) I went pro se, the court made Young's ex-attorney his
standby attorney, bad deal - he didn't want to do anything.
(D) The same day Young went pro se he asked the court to
suppress the evidence in the apartment. The judge stated he will
rule on it later. He did during trial. The Appeal Court said at
this point although the judge ruled on it, my ex-attorney was late
filing my motions, not doing what I asked him to do. I asked the
court for girl's medical record. The judge said I would not have
enough time to get it.

I found out later the prosecutor knew the

girls met each other in a mental hospital, Hargrove on Roosevelt
Road, that Kiwana was bipolar and Jyanna had mental issues.

Both

were not fit for trial. Prosecutor knew this and rushed the trial
after I went pro-se.

Young never received his superceding indictment,

16

just (6) counts unsigned, or the transcriptifrom the grand jury.
(Biased Judge)
(E) ,The two times my ex-attorney asked for continuances were:
(1) The prosecutor tried to ambush us by taking two of
the most important elements out of the indictment two weeks before
trial. Those two elements changed the whole trial.
(2) My ex-attorney's mother had to have emergency surgery
on her head; neither had anything to do with Young or caused by
him, if anything both by each attorney.
(F) After I went pro se, I should have been given thirty days
to prepare for trial unless I waived the thirty days in writing.
I had no Discovery so if as soon as I went pro se I asked the court
to suppress the evidence from the apartment and storage, the court
chose to wait until sidebar to answer the motion.

The Seventh

Circuit Appeal Court said they would not answer the motion because
it was turned in too late.

The District Court answered the motion,

but said it was denied because the landlord had an extra key which
was Mr. Harris.

So how can Mr. Young be at fault because my

ex-attorney was ineffective?

That's why I went pro se because he

would not do his job.
Thorough and creative investigation is critical to a successful
defense and is a legal and ethical obligation even for a person
going pro se. It should not be a punishment for going pro se.

Pro

se should have time to interview all potential witnesses (whether
government or defense) and complete and continuing Discovery.
Three weeks prior to trial the Government will provide material
-

required by 18 U.S.C. § 3500 and Giglio v. United States.

17

The Supreme Court has recognized a legal entitlement to
investigative assistance since Powell v, Alabama, 287 U.S. 45
(1932) reversed the convictions of the Scottsboro defendants.
Powell held that an accused is entitled to the effective assistance
of counsel "during perhaps the most critical period of the
proceedings... from the time of... arraignment until the beginning
of... trial, when consultation, thorough ongoing investigation and
preparation (are) vitally important".

Id. at 57. The American Bar

Association has specifically identified the duty of thorough
investigation as an essential ethical obligation. (See ABA Standards
for Criminal Justice 4-4 1980)
The Sixth Amendment requires investigation and preparation.
The Court of Appeals has reversed convictions due to ineffective
pretrial consultation, investigation and preparation. See e.g.,
Byrd v. United States 614 A. 2d 2$ (D.C. 1992); Sykes v. United
States. 585 A. 2d 1335 (D.C. 1991); Harris v. United States 441
A. 2d 268 (D.C. 1982); Asbell v. United States 436 A. 2d 804 (D.C.1981).
The importance of thorough investigation cannot be over­
emphasized.

Even the most skilled lawyers effectiveness is

undermined by inadequate knowledge of facts.

Why would the court

allow a defendant to go pro se but won't allow him time to prepare
an adequate defense, or worse, get the Discovery to prepare or
interview all witnesses, especially when the case is 10 years to
life and received 254 months?
How can the Government prove 18:1594 attempt without the
offensive elements "recruit", entice, (a)(1), (a)(2), E, advertise,
patronize? (See Exhibit 2)

18

/

IV. 18:1594 ATTEMPTED CHARGE
Alexis did not meet the 18:1594 or 18:1591 attempt. There
was no evidence linking me to Alexis.
(1) Alexis could not identify me as the driver, and
stated under oath she gave Young no money.
(2) Alexis could not I.D. me in a F.B.I. lineup.
Alexis' testimony:
Q: Have you ever met that person before?
A: No.
Q: Did you see his face?
A: No.
Q: Did he say anything to you in the car?
A: No.
Q: Was there any further discussion in the car at all
about where you were going or what you were going
to do?
A: No.
She stated she gave the defendant no money at all. Alexis
only communicates with Jyanna, and she does not know if Jyanna
works with anyone.

She stated they always have called each other

for dates; that's what they do.
Alexis on January 11, 2018, met with Government and Assistant
U.S. Attorney Christine O'Neil and F.B.I. Task Force Officer
Robert Murphy.
When Alexis was picked up by Jyanna and the man, the car
they picked her up in was red.

Alexis never had a phone conversation

with him and never exchanged a text message with him; Alexis stated

19

it was "J" baby Daddy's uncle; her cousin is "J".
Alexis told family members that Jyanna sent the police to
her house, even though she did not have anything to do with the
case. F.B.I. Report on May 1, 2018. (See Exhibit 20)
Dana McNeal, F.B.I. Task Force Officer Khin Kung, and
Assistant U.S. Attorney Christine O'Neil.
18:1594 states a defendant has to tempt to recruit the victim
or entice a person. I was not indicted on either, or (a)(1) or
(c)(2) or E.
"J" stated she had a two girl call,
but her cousin to go to call also.

She asked Young to go

Allegpdiy Young did, on the

way they saw a girl and a guy walking. I allegedly replied, "That
better be her Dad with her, she's too young for him." Young and
"J" passed them up and "J" said "That's my cousin".

I replied,

"I'm tired of you bringing those young girls around me."
is in F.B.I. Report)

(This

So even by "J's" statement, Young did not

want to be around the girl.
Alexis testified "J" texted her, not the driver. She did not
know the driver; after the driver just dropped her off.

She did

not have sex, just talked to the other guy while "J" went in the
room with his friend.

Alexis got back in the car and nothing was

said at all, the driver just dropped her off.

She never heard or

saw him again.
So, if anything, "J" gets the attempt, not me, if yourbelieve
"J's" story.

"J" said I picked them up at 2:00am; Alexis said

in evening someone's'lying there.

18:1594 you have to attempt to

recruit or entice the alleged victim.

20

I was not charged or indicted

for either, so how can Young be charged for attempt?
Appeal Court said I do not have to prove either,

The

So I cannot

be guilty; my case has to be reversed and I am acquitted.
V. HISTORICAL CELL SITE - EVIDENCE
' Mr. Young asked the court the day he went pro se to suppress
the evidence and asked the court during trial. The Government
violated the defendant's Fourth Amendment rights.
Special Agent Dana McNeal stated she did not have any warrant
at all, even an arrest warrant, this under oath.

Agent McNeal

stated boldly again, she had no warrants for anything,

My case

was two years old; why not wait and get one?

The prosecutor asked

the judge if he has to start with this case,

The judge helped her

out and said Agent Dana McNeal had put in for application, that
was not given to Young or stated by Agent McNeal under oath. If
she did, why did she not wait for the warrant?
My information was being retrieved for a period of over
seven days, ("two years", if not more).
Supreme Court; Carpenter v. United Staes U.S. 2018 WL 3073916
(2018) the government should not have been permitted to use
historical cell site evidence at trial. (R.212)
Carpenter v. United States 138 S. Ct 2206 Nov. 29. 2017 in
Re: Application of U.S. for Historical Cell Site Data 724 F. 3d 600
United States v. Davis 785 F. 3d 498 (Call 2015)
Thousands of convictions questioned; Prisoners Release Show
Why Law Enforcement Technology Must Be Tested by Third Parties.
In the U.S., law enforcement routinely use CSLI to lock up
people, and the Supreme Court recognized in Carpenter v. United

21

State's, 138 S. Ct. 2206 (2018) that CSLI is so intrusive into
people’s lives that cops must "get a warrant".
As Chief Justice John Roberts said, warrants, however, don’t
ensure that the CSLI is accurate.

Only a third-party review of

the technology used to gather the evidence can do that.
Denmark proved that to be true.

Instead of trying to fight

to keep the shaky evidence from being tossed, Denmark law enforcement
leaders immediately and openly put prosecutions on hold and let
people out of prison. "We simply cannot^live with the idea that
information that isn'’t accurate could send people to prison" said
Denmark official Reckendorff.
The problem'was with the software used by law enforcement,
which used site location information ("CSLI") to establish that a
. suspect was in the area of a crime when it happened,

The software

was supposed to collect the CSLI to prove a picture of the suspect's
movements and whereabouts at the time of the crime. It did do-that
only it did it incorrectly.
Instead, the software left out important details from the
(CSLI) in creating that picture..
I

It linked phones to the wrong cell tower, got the location of
the towers themselves wrong, and only registered some ,of the CSLI.
It even linked the same cellphone to multiple towers at the same
time, often hundreds of miles apart.
Denmark Justice Minister Nick Hackkerup said in a statement
that the attorney general stopped all prosecutions based on the
software's CSLI.

Telecommunications data temporarily may not be

used in court as evidence that the defendant is guilty.

22

This is where third-party auditors could provide a much
needed check on technology,

Having an unbiased third party test

the technology is a crucial layer of verification to make sure
the system is doing what it's creators say it does - and doing
it correctly.

Having humans involved in the technology to do

the testing is not enough.
Recall the Hinton lab scandal in Massachusetts in 2011, when
lab technicians falsified drug evidence that put tens of thousands
of people in prison.

Because the drug evidence was supposedly

authenticated by machine in a lab, the evidence was accepted as
accurate.

Only years later did the error come to light and in

2017 the Massachusetts Supreme Court overturned 21,587 drug
convictions because of the error.
In 2018, the New Jersey Supreme Court questioned about 21,000
DUI convictions after it was revealed that the officer in charge of
calibrating the breathalyzers in five counties didn't do it properly.
Mr. Young was sentenced to 21 years with questionable
information.

This is a violation of Mr. Young's constitutional

due process right to a fair trial.

This information has been proven

bad all over the world; what will America do about it?

Do American

people deserve the same right as Denmark people, or do we deserve
less?
VI. INDICTMENT
I was indicted on: Violations, Title 18, United States Code,
section and subsection 18 U.S.C. § 1591
Exhibit 14)

23

(a) and (b)(2).

(See

The superceded indictment states the defendant herein, in
and affecting interstate commerce, knowingly harbored, transported,
provided, obtained, and maintained by any means a person, namely,
Minor A, and benefitted financially and by receiving anything of
value from participation in a venture which has engaged in
harboring, transporting, providing, obtaining, and maintaining by
any means Minor A, (knowing and in reckless disregard) of the fact
that Minor A had attained the age of 14 years but had not attained
the age of 18 years old and would be caused to engage in a
commercial sex act.

(Made the stature ambiguous)

18:U.S.C. § 1591 (b)(2):

If the offense was not so effected,

and the person recruited, enticed, harbored, transported, provided,
obtained, advertised, patronized or solicited had attained the age
of 14 years but had not attained the age of 18 years at the time
of such offense, by fine under this title and imprisonment for not
less than 10 years or for life.

(See Exhibit 15)

Section (c) whoever knowingly:

"Knowingly" appears in the

introductory portion of 18:U.S.C. § 1591(c) simply to supply the
means required for both paragraph (a)(1) and (a)(2). The requirement
does not apply to the interstate commerce. (See Exhibit 14)
District Court says it is thensame as U.S.S.G. and 2G1.3 (a)(2)
which is not according to 18:U.S.C. § 1591.
I was not indicted on: (a)(1), (a)(2), (b)(1) or none of
Section (E), recruit, entice, solicit, patronize, advertise, or
the Government stated I was not indicted on controlling the girls.
(See Exhibit 7)

24

My indictment the Government had knowingly in the wrong
section in (b)(2).

That changed the whole meaning of knowingly.

I was sentenced under (b)(1), but I was not indicted under
(b)(1).

(See Exhibit 7)

I was sentenced for 18:1591 F sex trafficking of a minor or
by force, fraud or coercion.
guilty of this.

The jury was not told to fine me

(See Exhibit 7)

United States District Court of the Tenth Circuit (2020)
2020 U.S. Dist. LEXIS 6030 United States v. Palms

January 14. 2020

On June 6, 2019, a grand jury returned an indictment charging
defendant with sex trafficking by means of force, fraud, or
coercion in violation of 18:U.S.C. § 1591.
1591 and this statute has specific definitions of "coercion",
"serious harm" that will guide the jury as to the type of conduct
that constitutes force, fraud or coercion.
The jury at my trial never was told to find me guilty of what
the court sentenced me for of the grand jury before trial.

The

District Court gave the prosecutor permission to drop offensive
elements after the grand jury returned it's indictment; now the
court changed the charge after the trial,

The Seventh Circuit

continued to violate my due process.
My argument to the Appeal Court and District Court was how
I could be found guilty of 18:1591 or 18:1594 without being indicted
on the offensive element "recruit" or "entice". (See Exhibit 10)
The court went around it by mentioning "coercion"; I never stated
that as an offensive element.

25

The Seventh Circuit Court of Appeal stated the District
Court properly rejected this argument, disproving that he knowingly
"coerced his victims because coercion is not an element of the
federal crime of sex trafficking when the victim is a minor".
Then I asked, how can the District Court sentence me regarding
18:1591 sex trafficking of a minor or by force, fraud or coercion,
if coercion is not an element, and the jury was not told to find
me guilty of this.

The Appeal Court says it’s not an element of

federal crime of sex trafficking when the victim is a minor.
(See Exhibit 12)

This is (b)(1) - I was not indicted on that section

and subsection, so how can I be sentenced under those sections?
Then the Appeal Court states: Nor would it have helped Young
to disprovedthat he knowingly "recruited" the victims to prostitution.
Although recruitment is one possible means of completing the federal
crime of sex trafficking, Young was not indicted for recruitment.
With that statement in mind from the Appeal Court, I was also
not indicted on the offensive element "entice".
failed to mention that offensive element,
the lack of reference to "entice".)

The Appeal Court

(See Exhibit 13 for

I even put in a reconciliation

motion to let the court know they overlooked that element; the
court denied the motion.
The Appeal Court erred; I also was not indicted on "entice".
The Appeal Court should have said the same for the offensive element
"entice" per 18:U.S.C. § 2422(b) enticement of a minor to engage
in sexual activities.

The Government must prove beyond a reasonable

doubt that the defendant (1) used a facility of interstate commerce,

26

such as the internet or the telephone system. (2) Knowingly used
the facility of interstate commerce with the intent to persuade
or entice a person to engage in illegal sexual activity, and
(3) believe that the person sought to persuade or entice was under
(See Exhibit 8)

the age of 18.

Then the Appeal Court should have said nor would it have
helped Young to disprove that he knowingly "enticed" the victims
to prostitution.

Although enticement is the other possible means

of completing the federal crime of sex trafficking, Young was not
indicted for "enticement" either.

(See Exhibit 8)

So, how can I be guilty of 18:U.S.C. § 1591 or § 1594 without
"recruit" or "entice"?
or commerce.

The Government can't prove jurisdiction

I should have been acquitted.

The Government said they superceded my indictment.

The

Government's superceded indictment should have been found fundamentally
defective.

I put in a motion for the court to render the indictment

constitutionally defective and I should have not been tried under
this indictment.
Government.

Further, the indictment must be signed by the

(See Exhibit 7) Young should have been acquitted.

18:U.S.C. § 1591:

The Government bears it's unassailable

constitutional burden of proving, beyond a reasonable doubt, all
elements of the crime; 5th and 11th Circuit Mozic v. United States
and 24 LED2D 182. 508 U.S. 275 Sullivan v. Louisiana 508 U.S. 275,
124 L. Ed 2d 182, 113 S Ct 2028.

27

18:U.S.C. § 1591 and 1594 states:
(a)(1) in which the defendant had a reasonable opportunity
to observe the person so recruited, enticed, harbored, transported,
provided, obtained, maintained, patronized, or solicited
advertised.
I was not indicted on (a)(1), (a)(2), (b)(1) or none of
Section (E), recruit, entice, advertise, solicited, patronized.
Yet the District Court and Appeal Court sentenced Young under
them.
My Fifth Amendment due process claim that evidence was
constitutionally insufficient to sustain a verdict of guilty.
Fiore v. White, 531 U.S. 225 (2001) (per curiam) 5th and 11th
Circuit Court of Appeal Mozic v. United States.
VII. VERDICT AT VARIANCE WITH INDICTMENT AND
STATUTE FIFTH AMENDMENT'S GRAND JURY GUARANTEE
Fraudulent schemes: As long as crime and elements of offense
proved at trial are fully and clearly set out in indictment right
to grand jury.
Such indictment gives defendant clear notice, and variance
between indictment and proof adds nothing new to, nor broaden
indictment; after indictment has been returned its charges may
not be broadened through amendment except by grand jury itself.
United States v. Miller. 471 U.S. 130. 105 S. Ct. 1811, 85 L.
Ed 2d 99 (1985).
Defendant's conviction was invalid under Fifth Amendment
requirement that Federal felony prosecution be commenced by
indictment where court's instruction allows jury to find defendant

28

guilty for offense other than one for which he was indicted.
United States v. Vesaas, $86 F. 2d 101

(8th Circuit 1978) .

Defendant's conviction after jury instruction impermissibly
broadened scope of indictment breech.

Fifth Amendment guarantees

that no one may be prosecuted for felony except by grand jury
indictment.

United States v. Harrill, 877 F. 2d 341

(5th Circuit

1989) 1989 U.S. App. LEXIS 12076 (5th Circuit August 10, 1989).
The United States Court of Appeal of the Fifth and~~Eleventh Circuit
2014» 752 F. 3d 1271, United States v. Mozic May 22, 2014*
Same case Chief Judge Wood quoted from states:
Nothing in 18:U.S.C. § 1591 lowers the Government's burden of
proof, different from the Appeal Court of Seventh Circuit.

The

Government must prove beyond a reasonable doubt "all" elements of
the 18:1591 crime.

(See Exhibit 2)

The Government or Court could not answer did each of the victims
prove all the offensive elements of the crime and "K" twice.
Then the Government changed the "or" to "and"; that means the
Government had to prove the crime happened both outside and inside
the United States.

They did not prove.that.

(See Exhibit 7)

Young should not have been tried at all.
18:1591 2a, ("2b"), 2c, 2d, 2e - an accused's right, under
the federal constitution's Sixth Amendment, to a jury trial in a
criminal prosecution includes, as the right's most important
element, the right to have the jury, rather than the judge, reach
the requisite finding of guilty; what a fact finder must determine

29

in order to return a verdict of guilty in a criminal case is
prescribed by the constitution's due process clause pursuant to
which the prosecution (1) bears the burden of proving "all"
elements of the offense charged.
The order of District Court denying defendant's motion to
dismiss for failure to state elements of charge offense involved
important rights and was reviewable; failure to allege elements
of charged offense was a fundamental defect that rendered indictment
constitutionally defective and gave rise to the right not to be
tried.

United States v. Bird. 342 F. 3d 1045. (2003) Cal. Daily

Op. Service 8187, 2003 D.A.R. 10169 (9th Circuit 2003) OF. with
drawn. 357 F. 3d 1082 (9th Circuit 2004).
Section 18:1591 "reflects" agnoticism... about "who caused
the child to engage in commercial sex act" quoting Watson v. United
States 552 U.S. 74. 80 128 S. Ct. 579. 169 L. Ed 472 (2007).
An indictment is defective if it fails to allege elements of
scienter that are expressly contained in the stature that describes
the offense.

"Knowingly" or "intentionally" is a definite element

of the offense charged under 18:U.S.C. 841

(a)(1) where willfulness

or knowledge is made an element of the crime the statutory
requirement is not to be ignored.

The charge must either include

these terms, or words of similar import.
Our legislature speaks only through their statutes, statutes
are their only voice,
not.

Statutes are law, extrinsic materials are

This law anyone subject to its rule should have to listen

only to those statutes. (Reading Law) The interpretation of legal

30

text by Supreme Court Justice of the United States Antonin Scaiia
(Page) 310 and Bryan A. Gardner.
The prosecutor asked the court to tell me I could not show
the statute I was charged to the jury or bring up any of the
offensive elements that I was not indicted on in the statute.
The prosecutor was allowed to do just the opposite of what
the court told me.
I was charged with.

They were able to mention the statute and what
Then even had the District Court and Appeal

Court also use the offensive elements that I was not charged with
to find me guilty.

The prosecutor, the District Court and the Head

Judge in the Appeal Court used alleged facts and words that would
otherwise constitute the same as the element I was not indicted on.
The District Court, the prosecutor, and the Appeal Court said
Young "facilitated" the victim's calls or Young "promoted" the
prostitution, he had sex to try them out.

That's the same as the

offensive element I was not indicted on, "entice".
used these words all through the trial.

The prosecutor

v

The court warned the prosecutor during trial-:.

But listen,

if the — if you drop those as elements, but then you introduce the
facts that would otherwise constitute recruitment and enticement,
which is then relevant to whether he also transported them and
maintained and harbored and so on, then that puts that fact into
issue even though it is not an element.
The court was wrong; "recruit and entice" or known as
18: § 2422(b) is offensive element.

My motion should have been

granted and I should have been acquitted.

31

(See Exhibit 8)

VIII. SENTENCE
The court said in my criminal case judgment:
The Defendant is adjudicated guilty of these offenses:
Title and Section/Nature of Offense
18:1591 F Sex Trafficking of Children or by Force, Fraud
or Coercion.

All six counts.

(1) The indictment was not signed by the Government.
(2) On page 11 of Direct Appeal decision from Seventh Circuit
Court of Appeal, the Appeal Court stated disproving that he
knowingly "coerced" his victims would not have helped Young because
coercion is not an element of the federal crime of sex trafficking
when the victim is a minor.

Id. 1591

(a)(c)

How can I be sentenced with an adult charge?
United States Supreme Court: 136 S. Ct. 1619 Torres v. Lynch
May 19. 2016

18:U.S.C. § 1591

(a)(1) which criminalizes sex

trafficking of children, or of adult by force, fraud or coercion.
So I ask, how can I be sentenced with both when the Government
says all the alleged victims were minors?
The court sentenced me also for elements that I was not
indicted on, or found guilty of by the jury or grand jury.
(1) Base offense level:

U.S.S.G. arid 2a1.3 (a)(2)

(20' The participant (the defendant) otherwise unduly influenced
a minor to engage in prohibited sexual conduct that "enticed the
minor".
(3) (b)(2)(B) applies "that entice"

32

1
(4) The offense is increased two levels, as it involved the
use of a computer or an interactive computer service to "entice",
encourage, offer, or solicit a person to engage in prohibited
sexual conduct with the minor.
(5) The defendant knew or should have known the victim of the
offense was a vulnerable victim.

That's "recruit or entice".

(.6) Perjury with keys - jury was not told to find me guilty
of this.
(7) I was not indicted on recruit, entice, advertise, solicit,
patronize, (a)(1), (a)2, (b)(1) or any Section (E), U.S.S.G. 2G1.3
is not 1591(a) or U.S.S.G. and, U.S.S.G. and 2G1.3(a)(2).
How can I be sentenced on offensive elements that were not in
my indictment?

The Government changed the statute and made it an

ambiguous statute, and section (b)(2) is ambiguous also; how can
a.ny grand jury or jury return a correct verdict?
Then the court knew, due process claim that evidence was
constitutionally insufficient to sustain verdict of guilty:
Fiore v. White, 531 U.S. 225 (2001) (per curiam) granting
federal habeas corpus relief because prosecution failed to present
sufficient evidence to prove elements of crime and therefore
petitioner's conviction is not consistent with demands of the
federal due process clause.

33

1
IX. REASON FOR WRIT
Justices of the United States Supreme Court:
My rationale for submitting this Writ of Certiorari is
straightforward. I feel I have been wronged judicially by being
convicted of elements of 18:U.S.G. § 1591 which were not consistent
with my grand jury indictment,

I ask for judicial intervention at

the court's discretion.
From the start of this case, the Government asked the court to
tell me I could not present/introduce the elements of offense to the
jury that I was not being charged with. Yet the prosecution was
allowed to do the opposite by using words that meant the same. The
focus of the Appeal Court was similar, using alleged facts and words
that did not have any applicability to those included in the
indictment. After tieing my hands so I could not mount a proper
defense to the improper case elements, I decided to go pro se and
would not plea out.
Following arrest without a warrant, and while in custody of
authorities, with no Discovery at hand to defend myself, what
recourse did I have? How can I go pro se and ask for suppression of
evidence and yet constantly get motions denied?

How can the

Government present an unsigned indictment from the grand jury and
the judge sentence me under the adult section of the 18:1591 statute?
How can a lead F.B.I. agent be allowed to lie and falsify information
while under oath? When is it acceptable for the Government to build
a case on elements of criminal conduct that do not have applicability
to the grand jury indictment?

34

X. CONCLUSION
For the foregoing reasons, Alien Young respectfully
■requests that this Court issue a Writ of Certiorari to
review the judgment of the Seventh Circuit Court of Appeal
and the District Court.

Respectfully submitted,

Alien Young/

Date /

35

